        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
Program to Assist Federal Buyers in
the Purchasing of Energy Efficient
Products




OAS-RA-10-08                          April 2010
                                 Department of Energy
                                   Washington, DC 20585
                                         April 27, 2010



MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General
SUBJECT:                INFORMATION: Audit Report on "The Department of Energy's
                        Program to Assist Federal Buyers in the Purchasing of Energy Efficient
                        Products"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) established a series of
energy-related goals, one of which was to make Federal facilities more energy efficient. The
Department of Energy (Department) plays an integral part in this process. The Department's
Federal Energy Management Program (FEMP), established in 1973, helps Federal agencies
achieve energy efficiency and conservation goals by developing and publishing energy
efficiency specifications. According to FEMP, Federal agencies spend approximately $10
billion a year to purchase energy consuming products and have the opportunity to save well over
$200 million annually by choosing best-in-class, energy efficient products.

Federal agencies are required to purchase products which are FEMP-designated or those
qualified as energy efficient under the ENERGY STAR program, a separate program jointly
managed by the Department and the U.S. Environmental Protection Agency to promote energy
efficient consumer and commercial products. In fact, FEMP often adopts or incorporates
ENERGY STAR efficiency standards in its specifications with the goal of serving as a
clearinghouse for energy efficiency information. Of the 43 efficiency specifications published
by FEMP, 27 were for products that were also rated by ENERGY STAR (See Attachment 1).

FEMP utilized one of the Department's national laboratories to support its program by
identifying product categories and updating energy efficiency purchasing specifications. For
Fiscal Years (FY) 2006 through 2009, approximately $1.6 million was spent to develop and/or
maintain such specifications and perform program-related activities. Based on the goals of the
Recovery Act to promote energy conservation and because of the significant opportunities for
reducing energy consumption government-wide, we initiated this audit to determine if FEMP
had effectively managed its program for designating energy efficient products.

CONCLUSIONS AND OBSERVATIONS

The Department's management of the FEMP had not always provided the Federal procurement
community with up-to-date energy efficiency product specifications. Due to a lack of adequate
documentation, we were unable to objectively evaluate the effectiveness of a number of Program
activities. Nonetheless, we identified several opportunities to improve FEMP's standard setting
and maintenance efforts, a major mission component. Specifically, FEMP:

       Had not always maintained up-to-date energy efficiency specifications. For some
       products, FEMP had not updated its specifications for as long as nine years despite well-
       known, demonstrated efficiency gains in the intervening period;

       Could not demonstrate that it had adequately pursued the development of new energy
       efficiency specifications; and,

       Had not effectively managed relevant contractor efforts essential to the Program.

Addressing these issues would, in our opinion, improve FEMP's ability to effectively assist
Federal agencies in purchasing the most energy efficient products available.

As acknowledged by Department officials, the problems occurred, in large part, because
insufficient attention had been devoted to FEMP operations in the past. In particular, program
officials told us that internally imposed resource constraints prevented FEMP from developing
new product specifications and maintaining up-to-date energy efficiency product specifications
for the wide array of products purchased by the Federal government. FEMP officials asserted
that staffing levels were severely constrained during FYs 2006 through 2009 due to what they
described as other mission-critical priorities. During that period, they noted that the specification
development component of the program was staffed by one part-time Federal employee. Given
the resource constraints, FEMP managers told us that they focused on updating existing
specifications, especially those not rated by ENERGY STAR. To help address staffing
shortages, FEMP officials noted they were adding one staff position to the program during
FY 2010.

Viewing the program in its entirety, it was our conclusion that the Department could not ensure
that it was providing Federal agencies with up-to-date information needed to help ensure that the
products they were purchasing were among the most energy efficient available. As detailed in
the remainder of our report, additional actions are necessary if the Program's effectiveness in
reducing energy demand in the Federal sector is to be maximized.

                                     Policies and Procedures

FEMP had not documented its policies and procedures to evaluate Federal procurement
patterns, review and update product specifications, ensure that FEMP designated products were
the most efficient in the market, and coordinate specification development efforts with
ENERGY STAR. The U.S. Government Accountability Office's Standards for Internal
Control in the Federal Government provides that agencies should document their systems of
internal control, including policies and procedures that are necessary to have reasonable
assurance about the efficiency and effectiveness of operations. In our judgment, the lack of
documented policies and procedures undermined the credibility of the Program. Even though
officials acknowledged that formal policies did not exist, they asserted that specification
development efforts had been based on detailed data collection and analysis, including analysis

                                                 2
of federal procurement patterns, market research, and collaboration with other standard setting
bodies. Such claims however, could not always be objectively evaluated.

For example, while the FEMP website contains criteria for selecting new products for
specification development, we found that there was no formal system in place outlining the
requirement to complete periodic reviews of published specifications and track changes in the
marketplace. In fact, program officials stated in a written response to our inquiry that there
were no formal or documented internal policies and procedures for specification development
and updating. In response to our concerns, FEMP officials told us that they plan to determine a
priority ranking for all product specifications in FY 2010 which will be used to guide the work
plans for product updates and additions in FYs 2011 and 2012. FEMP also noted that it intends
to better document its current policies and procedures.

                                    Specification Development

FEMP had not, in the recent past, developed information to identify products currently
procured by Federal purchasers that offer opportunities to promote energy efficiency. In the
past, the Department had been directed under the National Energy Conservation Policy Act to
identify products for which Federal purchasing power would promote the development and
commercialization of energy efficient products. Such information is critical to developing a
program that provides Federal buyers with relevant, up-to-date energy related assistance.
FEMP officials, however, told us that Federal purchasing patterns were difficult to determine
since data is highly dispersed and difficult to obtain, if available at all. In spite of this concern,
FEMP officials noted that the Department made a decision in FY 2009 to increase funding for
gathering just such product information in FY 2010. Specifically, the Program has initiated
several studies that will help it to identify additional Federal procurement patterns. Further,
FEMP officials stated that they are working with the General Services Administration and the
Defense Logistics Agency in assessing their product catalogs to identify Federal procurement
patterns.

                                        Specification Updates

Further, FEMP had not always ensured that it had maintained product specifications that were
current with the energy efficiency specifications established by ENERGY STAR for the same
product categories. In particular, we identified 11 specifications in which delays occurred in
updating FEMP's purchasing specifications as compared to the energy efficiency
recommendations issued by ENERGY STAR. For example, under FEMP, the Department
delayed at least nine years in updating the information that it provided to the Federal buyer for
the very important "computer" category. In fact, FEMP issued its most recent purchasing
specification for computers in July 2000. In contrast, since that time, ENERGY STAR had
published at least two specifications for computers with increasingly stringent criteria, the first in
July 2007 and the second in July 2009.

FEMP officials, however, asserted that they had not updated specifications to remain current
with those published by ENERGY STAR because: (i) the differences in the energy saving
requirements were, in some cases not significant; and, (ii) anecdotal evidence suggested that
Federal agencies were complying with the ENERGY STAR requirements. FEMP noted, for
                                                   3
example, that while it had a draft update for the computer purchase specification, it did not
consider the update to be a high priority because there was an alternate ENERGY STAR
specification available for Federal computer acquisitions. Officials told us that they are not
required to develop a FEMP designation where an ENERGY STAR specification already exists.
FEMP officials, however, indicated that the Program was considered to be a clearinghouse for
the government's purchasing community. Yet, despite this expectation, the FEMP website did
not provide up-to-date purchasing specifications for computers. Unless FEMP maintains current
specifications, it cannot be assured that it is effectively serving as a clearinghouse to which
Federal procurement officials can obtain up-to-date information about the most energy efficient
products.

Despite a number of attempts to obtain supporting information, we were also not able to
determine if the Program had adequately coordinated its efforts with ENERGY STAR on the 27
products covered by both programs. To address this concern, FEMP's managers explained that
they planned to work with ENERGY STAR to establish a production schedule for ENERGY
STAR specifications and include those milestones in its production schedule for revision of
FEMP specifications.

                                      Contract Management

Over a two-year period, FEMP authorized its selected management contractor to expend about
$875,000 to evaluate and update product specifications as well as other related activities.
Based on the information provided by program officials, we noted that FEMP had not ensured
that all tasks specified in pertinent work authorizations had actually been performed. Further,
there was no information available to indicate that FEMP had monitored the contractor's
performance and progress, as required. In fact, FEMP's work authorizations between 2007 and
2009 lacked the necessary details and deliverables to evaluate the contractor's work.

Our review of instructions to the contractor contained in work authorizations revealed that they
were, in our judgment, insufficiently detailed to hold the contractor accountable for the
development of new, and the updating of existing, purchasing specifications. Specifically,
FEMP had not established a detailed statement of work, milestones, deliverables, and/or
performance-based targets as required by Department Order 412.1A, Work Authorization
System. For example, the FY 2007 work authorization called for the development of one to two
purchasing specifications and the FY 2008 work authorization called for the development of
one to five purchasing specifications for new product categories. The instructions, however,
did not include details regarding the timing of work or the type and quantity of documentation
needed to support completion of deliverables. Symptomatic of this lack of specificity, and even
though officials indicated that the contractor had completed a number of activities, no new
purchasing specifications were developed during FY 2007 and 2008.

Further, work authorizations failed to identify and prioritize the updating of specifications or
provide information regarding the depth of analysis required for specification changes or
updates. Instead, the authorizations instructed the contractor to revise existing specifications
"as necessary." Our review of the 21 specifications updated since 2006 showed that, in some
cases, the updates were limited to reformatting specification presentation and revising cost
savings calculations rather than making fundamental revisions to the energy efficiency
                                                 4
technical requirements. FEMP officials told us that in such cases there was no need to update
the technical specification because there was no significant market change, but that critical
decision making cost data was updated. Program officials could not always, however, provide
information to support research into market changes. For example, FEMP officials provided
documentation dated 2008 showing that it had analyzed energy efficient products on the market
for the update of only one product category – chillers (refrigeration units used in large,
commercial cooling systems) as of the end of our field work. In fact, in response to a
preliminary draft of our report, FEMP officials stated that data used to develop product
specification was archived by the contractor and this information has not been readily
accessible to FEMP for prior years. To correct the issue, FEMP indicated that the contractor
has been directed to provide all data used for product specification development to FEMP on an
annual basis.

As a result of our review, FEMP told us that it had initiated actions to improve contract
management related to the purchasing specification program. Specifically, FEMP noted that it
had established a formal documentation process for review of quarterly contractor reports to
ensure strict compliance with Departmental requirements. Additionally, FEMP planned to
review the relevant product specification statements of work and modify those necessary to
ensure strict compliance with DOE Order 412.1A. Finally, FEMP stated that it had established
product specification milestones. Based on the timing of FEMP's responses, we were unable to
verify that the actions had been completed.

PROGRAM RESULTS

In our judgment, the lack of formal, documented policies and procedures, combined with the
inadequate management of related work authorizations, had adversely impacted the
effectiveness of FEMP's purchasing specification program. Given FEMP's responsibility to
assist Federal buyers in procuring the most energy efficient products; the $10 billion in
government expenditures each year on energy consuming products; and the national imperative
to reduce energy demand, we concluded that the FEMP needs to be adequately resourced and
effectively managed to meet these challenges. This specifically includes reviewing Federal
procurement trends and patterns; adding new products to the FEMP, as appropriate; and,
evaluating and updating specifications in a timely manner. These actions should allow the
Department to better assist the Federal government in achieving the potential energy savings
from efficient procurements, currently estimated at over $200 million annually.

RECOMMENDATIONS

To improve its designation of energy efficient products and help ensure that Federal purchases
achieve maximum available energy savings, we recommend that the Assistant Secretary,
Energy Efficiency and Renewable Energy:

   1. Take the necessary steps to ensure that FEMP has the resources needed to meet mission
      objectives;

   2. Develop policies and procedures for reviewing Federal procurement patterns, adding new
      products, and evaluating and updating product specifications;
                                               5
   3. Ensure that work authorizations are administered in accordance with Departmental
      Orders, including developing detailed statements of work, requiring deliverables and
      reviewing work performed; and,

   4. Coordinate with ENERGY STAR officials to ensure that efforts to provide energy
      efficiency specifications are not duplicated.

MANAGEMENT COMMENTS

Management pointed out that resources in prior years were not adequate to develop new product
specifications and to update existing specifications. Management acknowledged a need to
improve its documentation of policies, procedures and contractor work authorizations. FEMP
officials plan to carry out a number of actions to implement our recommendations including:

       Reviewing all options for improving the delivery of product procurement information to
       Federal customers, including associated resource requirements;

       Using the results of ongoing studies to guide future actions and the development of
       policies and procedures;

       Improving documentation to better demonstrate compliance with Department
       requirements and policies and procedures; and,

       Enhancing coordination with the ENERGY STAR program.

AUDITOR RESPONSE

Management's planned actions are responsive to our recommendations and, if successfully
implemented, should improve the Department's ability to provide up-to-date product energy
efficiency information to the Federal procurement community. Management comments are
included in their entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy, EE-1
    Chief of Staff
    Team Leader, Office of Risk Management, CF-1.2
    Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A




                                               6
                                                                                                        Attachment 1
                                      FEMP PURCHASING SPECIFICATIONS




                                                           Organization Issuing                  Fiscal Year of FEMP's
                  Product Category                        Purchasing Specification              Purchasing Specification

 1.   Beverage Vending Machines                          FEMP and ENERGY STAR                               2009
 2.   Clothes Washers                                    FEMP and ENERGY STAR                               2007
 3.   Commercial Fryers                                  FEMP and ENERGY STAR                               2007
 4.   Commercial Griddles                                FEMP and ENERGY STAR                               2009
 5.   Commercial Unitary Air Conditioners                FEMP and ENERGY STAR                               2002
 6.   Compact Fluorescent Lamps                          FEMP and ENERGY STAR                               2007
 7.   Computers                                          FEMP and ENERGY STAR                               2000
 8.   Copiers                                            FEMP and ENERGY STAR                               2001
 9.   Dishwashers                                        FEMP and ENERGY STAR                               2007
10.   Fax Machines                                       FEMP and ENERGY STAR                               2001
11.   Freezers                                           FEMP and ENERGY STAR                               2006
12.   Ground-Source Heat Pumps                           FEMP and ENERGY STAR                               2001
13.   Hot Food Holding Cabinets                          FEMP and ENERGY STAR                               2007
14.   Ice Machines                                       FEMP and ENERGY STAR                               2009
15.   Monitors                                           FEMP and ENERGY STAR                               2001
16.   Pressureless Steamers                              FEMP and ENERGY STAR                               2007
17.   Printers                                           FEMP and ENERGY STAR                               2001
18.   Refrigerators                                      FEMP and ENERGY STAR                               2006
19.   Commercial Refrigerators and Freezers              FEMP and ENERGY STAR                               2002
20.   Residential Air Source Heat Pumps                  FEMP and ENERGY STAR                               2009
21.   Residential Central Air Conditioners               FEMP and ENERGY STAR                               2008
22.   Residential Gas Furnaces                           FEMP and ENERGY STAR                               2009
23.   Residential Gas Water Heaters                      FEMP and ENERGY STAR                               2006
24.   Residential Ground-Source Heat Pumps               FEMP and ENERGY STAR                               2001
25.   Residential Windows                                FEMP and ENERGY STAR                               2007
26.   Roof Products                                      FEMP and ENERGY STAR                               2003
27.   Room Air Conditioners                              FEMP and ENERGY STAR                               2006
28.   Faucets                                              FEMP and WaterSense1                             2006
29.   Urinals                                              FEMP and WaterSense                              2006




       1
         WaterSense is an EPA-sponsored partnership program that promotes water conservation by setting efficiency
       standards for water consuming products.
                                                              7
                                                                    Attachment 1 (continued)
                                          Organization Issuing            Fiscal Year of FEMP's
                Product Category         Purchasing Specification        Purchasing Specification

30. Boilers: Commercial                           FEMP                             2007
             Residential                       ENERGY STAR                         2002
31. Air-cooled Chillers                           FEMP                             2004
32. Commercial Heat Pumps                         FEMP                             2002
33. Distribution Transformers                     FEMP                             2004
34. Downlight Luminaires                          FEMP                             2007
35. Electric Motors                               FEMP                             2006
36. Fluorescent Ballasts                          FEMP                             2001
37. Fluorescent Luminaires                        FEMP                             2008
38. Fluorescent Tube Lamps                        FEMP                             1999
39. Industrial HID Luminaires                     FEMP                             2007
40. Pre-rinse Spray Valves                        FEMP                             2009
41. Residential Electric Water Heaters            FEMP                             2006
42. Showerheads                                   FEMP                             2006
43. Water-cooled Chillers                         FEMP                             2004




                                           8
                                                                                    Attachment 2


SCOPE AND METHODOLOGY

This review was performed between April 2009 and March 2010 at the Department of
Energy's (Department) Headquarters in Washington, DC. The scope of our audit included a
review of the Department's management of its program for publishing energy efficiency
purchasing specifications in an effective and efficient manner. To accomplish the objective,
we:

      Interviewed Federal Energy Management Program (FEMP) and a contractor official;

      Reviewed laws, regulations, and Departmental policies and procedures applicable to the
      Federal Energy Management Program;

      Evaluated program requirements and documentation;

      Compared the purchasing specifications issued by FEMP with those of ENERGY
      STAR and WaterSense;

      Interviewed ENERGY STAR officials from the Department;

      Interviewed General Services Administration officials; and,

      Reviewed an assessment addressing the use of energy efficient products within the
      federal government.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit.

During the audit, we assessed the Department's compliance with the Government Performance
and Results Act of 1993. We concluded that the Department had not established performance
measures for FEMP's purchasing specifications program. We did not rely on computer
generated data to perform the audit.

We held an exit conference with Department officials on April 26, 2010.




                                               9
MEMORANDUM FOR:               GREGORY H. FRIEDMAN
                              INSPECTOR GENERAL
                              OFFICE OF INSPECTOR GENERAL

FROM:                         KATHLEEN B. HOGAN(508 VERSION)
                              DEPUTY ASSISTANT SECRETARY FOR
                                   ENERGY EFFICIENCY
                              OFFICE OF TECHNOLOGY DEVELOPMENT
                              ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:                      Response to the Office of the Inspector General Audit
                              Report on the Department of Energy’s Program to Assist
                              Federal Buyers in the Purchasing of Energy Efficient
                              Products

The Office of Energy Efficiency and Renewable Energy (EERE) appreciates the
opportunity to respond to the Office of the Inspector General’s (IG) draft audit report on
the Department of Energy’s Program to Assist Federal Buyers in the Purchasing of
Energy Efficient Products.

The Department of Energy takes seriously its role in promoting energy savings across the
Federal government and leading by example across the country. The Federal Energy
Management Program (FEMP) program within EERE is essential to these efforts. The
Department agrees with the report’s recommendations and has already taken a number of
steps to implement them, including prioritizing the development of new product
specifications, restoring funding, increasing staff, and expanding coordination between
the Federal Energy Management Program, the appliance standards program and the
ENERGY STAR program to capitalize on the specification and technical work on energy
efficient products already underway.

The steps being taken will ensure that the program meets its requirements and
aggressively pursues all opportunities to improve energy efficiency in the Federal
government, reduce carbon pollution and save money for taxpayers.

The FEMP program for product procurement includes a comprehensive set of activities
which if fully implemented can deliver significant savings. These efforts include:

   •   Developing Federal policy on product procurement and issuing related regulations
       on the types of products Federal agencies are required to purchase;
   •   Keeping product specifications up to date and expanding product specifications to
       new product categories where appropriate;
   •   Maintaining lists of products that exhibit acceptable levels of stand-by energy use;
   •   Providing training to procurement professionals from other agencies;


                                                                                             1
   •   Reporting annual energy savings; and
   •   Monitoring other agencies’ compliance with their annual energy and
       environmental scorecards.

To see that this program delivers on its potential, EERE has already:

   •   Restored funding and increased staff resources for product specification
       development;
   •   Provided clear direction on the importance of this work so as to overcome mixed
       messages in 2007 and 2008 on the priority of this work that included reducing the
       funding for this work area by 50% in FY2009;
   •   Entered into a new partnership agreement with EPA to enhance the ENERGY
       STAR program, including adding more products more quickly to the program and
       revising existing product specifications more frequently. This will allow the
       program to better maximize each agency’s strengths and expertise, which will
       allow FEMP to leverage the ENERGY STAR efforts more effectively to meet the
       needs of the Federal government;
   •   Enhanced coordination between the FEMP program and the Appliance Standards
       program in order to leverage related EERE technical work and develop
       standardized approaches for determining product priorities for appliance
       standards, FEMP-designations, and ENERGY STAR.

The Department believes that a number of the issues identified by the IG result from the
resource issues of the 2006 to 2009 period. The steps DOE has taken to restore the
necessary program resources, combined with the new and expanded partnerships and
coordination, will allow the FEMP program to quickly overcome these issues. Once
again, EERE’s management appreciates this opportunity to work with the IG. More
detailed comments follow.


           SPECIFIC IG CONCLUSIONS AND RECOMMENDATIONS

Maintaining up-to-date energy efficiency specifications and pursuing new
specifications:

   •   The Department of Energy agrees with the Inspector General that as a result of
       resource constraints, the FEMP program has not always updated all product
       specifications when new levels of efficiency were available, especially in those
       instances where ENERGY STAR product specifications applied. When there is
       an ENERGY STAR designation, that specification becomes the purchase standard
       for Federal agencies not the FEMP-designated product based on current statute
       and executive orders.

   •   Additionally, because the existing FEMP and ENERGY STAR specifications
       cover the vast majority of high energy using products, the program focused its
       limited resources on updating existing product specifications instead of issuing


                                                                                           2
       new specifications. For instance, from 2006 to 2009 FEMP published 21 updated
       product specifications. EERE is working with the Environmental Protection
       Agency (EPA) under a new partnership agreement to enhance the rate at which
       new products are added to the ENERGY STAR program and will review the role
       for additional FEMP-designated products as part of this assessment process.

Managing contractor efforts and establishing detailed statements of work, milestones,
and deliverables:

   •   While FEMP has followed the Department’s contracting guidelines and has
       established policies and procedures to oversee contractor work consistent with
       Department guidelines, the program recognizes that additional specificity and
       standardization in the statements of work (SOW), milestones, deliverables,
       performance-based targets and project/product review activities, would have
       helped maintain contractor accountability. FEMP has now taken actions to
       improve contract management, including implementing a formal review and
       documentation process for contractor reports and establishing more specific
       milestones for product specifications.

Evaluating Federal procurement patterns and coordinating specification development
efforts with ENERGY STAR:

   •   The Department of Energy initiated a series of improvements earlier this year.
       Improvements are being made in how FEMP reviews Federal procurement
       patterns, updates existing specifications, and adds new products.

   •   This year FEMP is funding a continuation of an earlier study analyzing agency
       compliance with Federal procurement policies. FEMP is also in the process of
       evaluating the Department of Energy’s procurement patterns to assess its
       purchasing behavior and opportunities for additional product specifications.
       These expanded efforts were made possible with an increase in funding for FY
       2010 and will be used to inform the program’s future actions and to develop
       aggressive policies and procedures that will help achieve energy efficiency
       improvements in Federal facilities.

   •   FEMP is also now formally documenting the process used to select and update
       FEMP-designated products. The Department is building on its previous efforts to
       coordinate with the ENERGY STAR program and this year will work with
       ENERGY STAR to establish a production schedule for ENERGY STAR
       specifications, and include those milestones in the FEMP production schedule for
       revision of related FEMP materials. This will ensure that FEMP updates its
       information whenever the ENERGY STAR program issues new product
       requirements.




                                                                                        3
                                                                    IG Report No. OAS-RA-10-08

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
